                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA OIG Compliance With
                     Retention Incentive
                     Regulations and Policies
                     Report No. 14-B-0246                   May 2, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Leah Nikaidoh
                                                    Darren Schorer
                                                    Catherine B. Allen




Abbreviations

CFR           Code of Federal Regulations
EPA           U.S. Environmental Protection Agency
OIG           Office of Inspector General



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                            U.S. Environmental Protection Agency                                            14-B-0246
                            Office of Inspector General                                                    May 2, 2014




                            At a Glance
Why We Did This Review              EPA OIG Compliance With Retention Incentive
On August 27, 2013, a member        Regulations and Policies
of the U.S. Senate Committee
on Environment and Public            What We Found
Works requested that the                                                                   Unauthorized retention
U.S. Environmental Protection       The EPA OIG did not comply with Office of
                                    Personnel Management regulations or agency             incentive payments
Agency (EPA), Office of                                                                    totaling $64,204 were
Inspector General (OIG),            policies on retention incentive pay. From 2006
                                                                                           made to EPA OIG
initiate work in connection with    through 2009, retention incentives were paid to        employees due to a lack
a fraud committed by John C.        two EPA OIG employees. The two EPA OIG                 of adequate internal
Beale, a former Senior Policy       employees received $64,204 in retention                controls and agency
Advisor with the EPA’s Office of    incentives with no documentation of annual             follow-up.
Air and Radiation. In particular,   recertification from 2008 through 2009.
the committee member asked
the OIG to determine EPA            The EPA OIG employees received unauthorized retention pay due to:
policies and processes that
“facilitated” Beale’s fraud.            Management confusion over the requirement for annual recertification of
Although the EPA authorized              retention incentive pay.
retention incentive pay to Beale        Evidence of the annual recertification not being retained.
until 2003, the agency                  The agency’s human resource system lacking internal controls to track,
continued to make retention              notify and automatically discontinue retention incentive pay if not properly
incentive payments to him until          authorized.
2013.
                                     Recommendation and Planned Corrective Actions
This report addresses the
following EPA theme:
                                    We recommend that the Deputy Inspector General determine whether any
                                    additional evidence exists to justify a retention incentive. If unjustified, he
  Embracing EPA as a high
                                    Deputy Inspector General should refer the matter to the agency to initiate action
   performing organization.
                                    to recover the unauthorized retention incentive amounts paid to EPA OIG
                                    employees.

                                    The Deputy Inspector General agreed with our recommendation.




For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20140502-14-B-0246.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460



                                                                                               OFFICE OF
                                                                                          INSPECTOR GENERAL




                                               May 2, 2014

MEMORANDUM

SUBJECT:       EPA OIG Compliance with Retention Incentive Regulations and Policies
               Report No. 14-B-0246

FROM:          Kevin Christensen, Acting Assistant Inspector General
               Office of Audit

TO:            Charles Sheehan, Deputy Inspector General

As part of our continuing work on internal controls as a result of the John C. Beale investigation,
we initiated an audit of the U.S. Environmental Protection Agency’s (EPA’s) internal controls over
retention incentives. During this review, we identified issues that impact the Office of the Inspector
General (OIG) and require your immediate attention, and we are reporting this to you separately.

Action Required

Please provide a written response to this report within 60 calendar days. You should include planned
corrective actions and completion dates for the recommendation. Your response will be posted on the
OIG’s public website, along with our memorandum commenting on your response. Your response
should be provided as an Adobe PDF file that complies with the accessibility requirements of
Section 508 of the Rehabilitation Act of 1973, as amended. The final response should not contain data
that you do not want released to the public. If your response contains such data, you should identify the
data for redaction or removal, along with corresponding justification. We will post this report to our
website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-1007 or
christensen.kevin@epa.gov; or Robert Adachi, Director, Forensic Audits, at (415) 947-4537 or
adachi.robert@epa.gov.
U.S. Environmental Protection Agency
Office of Inspector General

       EPA OIG Compliance With
       Retention Incentive Regulations
       and Policies

       Report No. 14-B-0246
       May 2, 2014
                 Reasons for Review
   Part of continuing work on internal controls of payroll and
    benefits.

   Review initiated on the U.S. Environmental Protection
    Agency’s (EPA’s) policies and procedures for paying retention
    incentives.




                                                                  14-B-0246




                                                                              2
              Scope and Methodology
   Performed fieldwork from October 31, 2013, to March 20, 2014.

   Conducted assignment in accordance with generally accepted
    government auditing standards issued by the Comptroller General
    of the United States.

   EPA personnel were covered in a separate report.

   Determined whether the EPA Office of Inspector General (OIG) paid
    employees retention incentives in accordance with federal
    regulations and EPA policy.

                                                                        14-B-0246




                                                                                    3
       Scope and Methodology (cont’d.)
   Obtained a listing of OIG employees who received retention
    incentives for calendar years 2006 through August 7, 2013.

   Reviewed retention incentive request forms,
    correspondence and SF-50s for each employee.

   Interviewed staff from the agency’s Shared Service Center.

   Contacted the two EPA OIG supervisors and their
    employees who received retention incentives.


                                                                 14-B-0246




                                                                             4
           Office of Personnel Management
                      Regulations

   The Code of Federal Regulations (CFR), in 5 CFR 575:
       o   Authorizes payment of incentive for employees:
            •   With unusually high or unique qualifications.
            •   Likely to leave in the absence of an incentive.

       o   Requires annual review of the determination to pay the incentive.

       o   Requires an authorized agency official to annually document in
           writing the determination to pay the incentive.

       o   Requires reduction/termination of the retention incentive
           authorization whenever conditions change.
                                                                            14-B-0246




                                                                                        5
                      EPA/OIG Policies
   EPA’s Pay Administration Manual:
       o   Authorizes a 1-, 2- or 3-year retention incentive.
       o   Requires annual recertification using the EPA authorization form.
       o   Requires the human resources officer to provide notification in
           advance of the annual reauthorization date.
       o   Requires termination if the employee is reassigned or promoted
           to a different position.
   Per EPA’s order on waivers, the employee is required to
    notify the supervisor and the human resources officer about
    overpayments.
   EPA OIG has no additional retention incentive policies.
                                                                          14-B-0246




                                                                                      6
                               Results
   We found that the EPA OIG did not fully comply with Office
    of Personnel Management regulations or EPA policy on
    retention incentive pay.
       o   No documentation of annual recertification identified for the
           last 2 years each employee received the retention incentive.
       o   One employee received retention incentive pay for 4 months
           beyond the promotion date.

   There are no EPA OIG employees currently receiving
    retention incentives.

                                                                           14-B-0246




                                                                                       7
                           Uncertified Incentives
   We identified two EPA OIG employees who received retention incentives
    with no documentation of annual recertification from 2008 through 2009:

                                                                            Uncertified
                                                                             Incentive
                             Employee #1 (Retired)                            $16,098
                             Employee #2                                         48,106
                              EPA OIG Total*                                   $64,204

   No EPA OIG employee has received a retention incentive
    since 2009.

*Amounts were calculated using data provided by EPA and are subject to reconciliation with payroll records.
                                                                                                              14-B-0246




                                                                                                                          8
         Uncertified Incentives (cont’d.)
   For both EPA OIG employees, retention incentives were
    properly reviewed and authorized for 2006 and 2007.

   No documentation is available to support either employee
    being authorized to receive retention incentives in 2008 and
    2009, as required by federal regulations and EPA policies.




                                                               14-B-0246




                                                                           9
                Pay Beyond Promotion
   EPA OIG Employee #1 received incentive pay although
    his incentive should have been terminated because he
    was promoted.
       o   The EPA issued a debt notice to the employee and advised
           him about the agency’s waiver process.
       o   The employee filed a waiver with the EPA’s Office of General
           Counsel Claims Officer. The Office of General Counsel
           reviewed the waiver and made a determination to partially
           reinstate incentive pay.
   No further action is warranted for incentive pay received
    after promotion.
                                                                          14-B-0246




                                                                                      10
              How Did This Happen?
   Confusion over the requirement for an annual
    recertification.

   Evidence of the annual recertification was not retained,
    even though one supervisor stated that the annual
    recertifications were completed.

   The EPA’s human resources system lacks internal controls to
    track, notify and automatically discontinue the retention
    incentive if not authorized by an annual recertification.

                                                               14-B-0246




                                                                           11
               Why Is This Important?
   Unauthorized retention payments were made to two EPA
    OIG employees:
       o   Employees #1 and #2 were paid a total of $64,204 without
           documentation supporting annual recertification.
       o   Employee #2 was overpaid by an additional $13,563 due to lack
           of timely termination.

   Review of the EPA’s internal controls related to retention
    incentives for agency employees identified similar issues.



                                                                           14-B-0246




                                                                                       12
                  Recommendation
   We recommend that the EPA OIG Deputy Inspector General
    determine whether any additional evidence exists to justify
    retention incentive pay. If unjustified, the EPA OIG Deputy
    Inspector General should refer the matter to the agency to
    initiate action to recover the unauthorized retention incentive
    amounts paid to the EPA OIG employees.




                                                                14-B-0246




                                                                            13
               Management Briefing
   We held an exit conference with the Deputy Inspector General
    on April 10, 2014, on the results of the review.

   The Deputy Inspector General agreed to take action to address
    the recommendation.




                                                             14-B-0246




                                                                         14
                                  Status of Recommendation and
                                    Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1       Action Official           Date      Amount      Amount

     1       13         Determine whether any additional evidence             O       Deputy Inspector General                  $64
                        exists to justify retention incentive pay.
                        If unjustified, refer the matter to the agency to
                        initiate action to recover the unauthorized
                        retention incentive amounts paid to EPA OIG
                        employees.
                   .




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




14-B-0246                                                                                                                                       15
                                                                          Appendix A

                             EPA OIG Distribution
Inspector General
Deputy Inspector General
Counsel to the Inspector General
Chief of Staff, Office of Inspector General
Deputy Assistant Inspector General for Congressional and Public Affairs




14-B-0246                                                                         16
